HHS/OIG, Audit -"Review of Graduate Medical Education Costs at Shands Hospital at University of Florida,"(A-04-01-01002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Graduate Medical Education Costs at Shands Hospital at University of Florida," (A-04-01-01002)
May 10, 2002
Complete
Text of Report is available in PDF format (1.1 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report shows that the Shands Hospital at University of Florida (Hospital) did not use accurate data when
reporting full-time equivalents (FTE) for claiming direct graduate medical education (GME) and indirect graduate medical
education (IME) costs.  The Hospital (1) did not support all FTEs claimed, (2) included time spent in unallowable activities and areas, and
(3) inappropriately classified specialty residents as primary care residents.  Hospital officials reported FTEs for
IME inaccurately because they experienced difficulty using revised software for electronic cost reporting.  Had Hospital
officials used the correct FTE numbers, the reimbursement amount derived within the cost report would have been much less
than what was calculated using a separate spreadsheet model.  Correction of the cost reports would result in increasing
the Hospitals 2-year claim for IME by $1,471,801 and reducing the 2-year claim for GME by $575,621.  Hospital officials
also reported that they have implemented procedures, where needed, to identify time spent in unallowable activities and
areas.